U.S. Department of                                    Inspector General              Office of Inspector General
Transportation                                                                       Washington, DC 20590
Office of the Secretary
of Transportation



September 17, 2013

The Honorable Bill Shuster                                The Honorable Rick Larsen
Chairman, Committee on Transportation                     Ranking Member, Subcommittee on
 and Infrastructure                                        Aviation
United States House of Representatives                    Committee on Transportation and
Washington, DC 20515                                       Infrastructure
                                                          United States House of Representatives
The Honorable Frank A. LoBiondo                           Washington, DC 20515
Chairman, Subcommittee on Aviation
Committee on Transportation and
 Infrastructure
United States House of Representatives
Washington, DC 20515


Dear Chairmen Shuster and LoBiondo and Ranking Member Larsen:

This letter responds to the Committee’s request that our office assess the Federal
Aviation Administration’s (FAA) progress in meeting Next Generation Air
Transportation System (NextGen) provisions in Title II of the FAA Modernization
and Reform Act of 2012 (the act). 1 As you know, the act was intended to help FAA
better manage NextGen, provide more accountability, and advance new air traffic
procedures and technologies. However, there were concerns with FAA’s ability to
meet these goals after a September 2012 Aviation Subcommittee hearing which
highlighted significant cost overruns and program delays with key NextGen initiatives
and modernization projects. 2 Given these concerns, the Committee requested that we
provide an update on the status of NextGen provisions in the act.

In response to this request, and as agreed with your offices, we identified and
reviewed FAA’s progress on 24 NextGen-related provisions cited in Title II of the act.
(See exhibit A for a description of the provisions and their implementation status.)
Specifically, we determined FAA’s progress in meeting the statutory requirements

1
 Public Law 112-95, signed into law on February 14, 2012.
2
 A Review of and Update on the Management of FAA’s NextGen Program, House Subcommittee on Aviation, Hearing held
on September 12, 2012.


CC-2012-003
                                                                                                                         2

and deadlines established in those provisions and the challenges FAA faces in
successfully implementing them. To perform our work, we interviewed officials from
FAA’s Office of Aviation Policy and Plans, Joint Planning and Development Office
(JPDO), Office of NextGen, and other offices. We also attended industry stakeholder
meetings that focused on several of the initiatives; reviewed documents from FAA
and other aviation stakeholder groups, such as RTCA, Inc; 3 and reviewed our
previous and ongoing NextGen-related audit work to identify any related issues.

In summary, FAA has implemented or is on target to implement 11 of the 24
NextGen-related provisions we identified. However, several of the provisions that
have yet to be implemented are key to achieving the full benefits of NextGen, such as
initiating rulemaking activities for Automatic Dependent Surveillance Broadcast
(ADS-B) In technology. 4 Underscoring FAA’s difficulties in meeting the provisions
of the act are longstanding programmatic and organizational challenges, including the
technical complexity of NextGen initiatives; the collaboration required with other
Government and aviation stakeholders to complete the initiatives; and financial
concerns, including meeting the provisions of the Budget Control Act of 2011. 5

FAA Has Implemented or Is on Target To Implement Almost Half of
the NextGen Provisions in the Act
FAA has implemented or is on target to implement 11 of the act’s 24 NextGen
provisions that we identified. Of significant importance are FAA’s actions to address
three key provisions:

• In June 2013, FAA filled a key leadership position by appointing a Deputy
  Administrator who will also serve as the Chief NextGen Officer. The Deputy
  Administrator will oversee the Agency’s NextGen modernization efforts,
  including coordinating the budgetary and planning aspects of the effort across the
  Agency’s lines of business and with partner agencies.

• In October 2012, the Agency completed a multi-agency NextGen Integrated Work
  Plan that defines the responsibilities of partner agencies, such as the Department
  of Defense (DOD) and the National Aeronautics and Space Administration
  (NASA), for conducting NextGen-related research.

• In May 2012, FAA established a program that uses third parties to develop and
  test advanced navigation procedures at five mid-sized airports.


3
  Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc. is a private, non-profit corporation
that develops consensus-based recommendations for communications, navigation, surveillance, and air traffic management
system issues. It functions as a Federal Advisory Committee.
4
  ADS-B In technology provides pilots with information transmitted from ADS-B ground stations as well as other aircraft. If
an operator chooses to equip an aircraft with ADS-B In avionics, a compatible display is needed to view the information.
5
  Public Law 112-25, signed into law on August 2, 2011.


CC-2012-030
                                                                                                                          3

Despite FAA’s progress, the Agency and the Department have not implemented two
key provisions of the act that are intended to accelerate NextGen technologies.
Specifically, (1) FAA has not initiated rulemaking activities to issue guidelines and
regulations on ADS-B In technology, and (2) the Department has not established a
public-private incentive program for encouraging users to install NextGen avionic
equipment on aircraft.

FAA is also behind schedule on meeting many of the act’s established deadlines. In
particular, FAA did not meet the deadlines for multiple reports and plans related to
determining the Agency’s progress with NextGen. For example, while FAA
completed the NextGen Integrated Work Plan, it did not meet another provision’s
deadline for reporting on its status in carrying out the plan. In addition, the Agency is
still working to develop reports that will explain the requirements needed to use
performance-based navigation 6 at the Nation’s airports.

FAA’s Difficulties in Meeting the Act’s NextGen Provisions Stem
From Programmatic and Organizational Challenges
FAA faces a number of programmatic and organizational challenges in fulfilling the
act’s NextGen requirements. According to FAA officials, the act’s provisions are
difficult to execute, as they require coordination among multiple programs, resolution
of complex technical and operational issues, and collaboration with industry
stakeholders. For example, delays in issuing guidelines and regulations for ADS-B In
are due, in part, to the challenges FAA faces to realize the full range of ADS-B
benefits. These include finalizing requirements for displaying traffic information in
aircraft cockpits, modifying the systems that controllers rely on to manage traffic,
developing and deploying new procedures for separating aircraft using satellite based
technology, and assessing potential system security vulnerabilities. As a result of
these challenges, FAA may not be ready to mandate the use of the technology by
2020, as required by the act. Moreover, as we reported last year, users are concerned
about investing in aircraft avionics for ADS-B In and other NextGen initiatives
because FAA has not clearly defined what benefits will be achieved and when. 7

According to FAA, many of its difficulties stem from the challenges of working with
multiple stakeholders. To successfully implement some provisions, the Agency will
need to work across multiple lines of business and with other Federal agencies or
organizations. FAA officials told us that this coordination is time-consuming and
limits the Agency’s ability to meet the act’s deadlines. For example, while FAA and


6
  Performance-Based Navigation is comprised of Area Navigation (RNAV) and Required Navigation Performance (RNP)
and describes the capability to navigate using performance standards. RNAV is a navigation method in which aircraft use
avionics, such as Global Positioning Systems, to fly any desired flight path without the limitation imposed by ground-based
systems. RNP is a form of RNAV that adds on-board monitoring and alerting capabilities for pilots.
7
  Status of Transformational Programs and Risks to Achieving NextGen Goals (OIG Report No. AV-2012-094), April 23,
2012. OIG reports are available on our Web site at http://www.oig.dot.gov/.


CC-2012-030
                                                                                                                           4

the NextGen Advisory Committee (NAC) 8 were able to agree on certain performance
metrics, as required by the act, there was considerable debate within NAC on the use
of other metrics, such as those related to aircraft fuel burn rates. Some NAC members
were concerned about publicizing fuel burn rates because it could provide competitors
with proprietary information such as flight routes and aircraft types. NAC is currently
working with industry stakeholders on a process to obtain actual fuel burn data to
meet the act’s requirement.

FAA officials also noted that budgetary issues, including the provisions of the Budget
Control Act of 2011, 9 have impacted its modernization efforts, including its ability to
conduct activities related to the act’s provisions. For example, FAA intended to
publish its NextGen Implementation Plan 10 in March 2013. However, according to
Agency officials, it did not publish the plan until June 2013 due to the impacts of
sequestration.

We plan to issue a full report on our findings later this year and will continue to
monitor FAA’s NextGen efforts through ongoing assignments, several of which relate
to the NextGen provisions of the act. 11 If I can answer any questions or be of further
assistance, please contact me at (202) 366-1959, or Matthew E. Hampton, Deputy
Assistant Inspector General for Aviation and Special Program Audits, at
(202) 366-1987.


Sincerely,




Calvin L. Scovel III
Inspector General




8
  NAC is a Federal advisory committee that will develop recommendations for NextGen portfolios with an emphasis on the
mid-term (through 2018). NAC includes representation from affected user groups, including operators, manufacturers, air
traffic management, aviation safety, airports, and environmental experts.
9
  The law requires FAA to reduce its remaining fiscal year 2013 budget by $637 million dollars, and the reduction will likely
result in cost and schedule baseline adjustments for individual NextGen and other modernization programs.
10
   The NextGen Implementation Plan is an annual plan that sets out FAA’s vision for NextGen, now and in the mid-term,
and identifies the Agency’s goals for technology and program development and its commitments in support of that vision.
11
   See exhibit B for a listing of our previous and ongoing work related to the Title II requirements and other NextGen and
modernization programs.


CC-2012-030
                                                                                                                                                                                            5


               EXHIBIT A. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                        (AS OF AUGUST 23, 2013)

Section           Provision                    Description                                                Deadline           Progress   Status


202               NextGen Demonstrations       Provide Facilities & Equipment funding priority to         None                          Met – FAA gives priority in its annual budget request
                  and Concepts                 NextGen activities.                                                                      and acquisition management processes for demonstration
                                                                                                                                        projects and developmental efforts.

204               Chief NextGen Officer        Administrator shall appoint a Chief NextGen Officer.       None                          Met – Michael Whitaker is the FAA Deputy
                                                                                                                                        Administrator and also serves as the Chief NextGen
                                                                                                                                        Officer. Mr. Whitaker was sworn into office on June 3,
                                                                                                                                        2013.

208(a)(1)         NextGen JPDO Associate       Head of the JPDO to be redesignated as the Associate       None                          Not Fully Implemented – On August 22, 2013, Major
                  Administrator                Administrator for NextGen Planning, Development, and                                     General Edward Bolton (Ret.) was named the Associate
                                               Interagency Coordination.                                                                Administrator for NextGen. However, FAA has not yet
                                                                                                                                        redesignated the Head of the JPDO as the Associate
                                                                                                                                        Administrator.

208(a)(3)(D)      NextGen JPDO                 Execute Memorandums of Understanding (MOU)                 8/14/12                       Met – Even though the MOUs were signed in 2008,
                  (Interagency MOUs)           between DOD, Commerce, Homeland Security, NASA,                                          FAA stated—and we believe—that they meet the intent
                                               and other agencies documenting their responsibilities to                                 of the provision.
                                               carry out the NextGen Integrated Plan (NGIP).

208(b)(5)         NextGen JPDO                 FAA shall complete a multi-agency integrated NextGen       None                          Met – FAA released the Fiscal Year 2015 Integrated
                  (Integrated Work Plan)       Work Plan that includes accomplishments and future                                       Work Plan on October 1, 2012. However, it does not
                                               costs.                                                                                   include budgetary information as required by the Act.


208(c)            NextGen JPDO                 FAA Administrator shall publish and annually update an     2/14/13 &                     Implemented Late – FAA completed the NGIP in June
                  (Implementation Plan)        NGIP.                                                      Annually                      2013—4 months after the due date. The NGIP was
                                                                                                                                        originally scheduled for publication a month after the
                                                                                                                                        President’s budget, but according to FAA it was delayed
                                                                                                                                        due to sequestration.

209               NextGen Senior Policy        NextGen Senior Policy Committee meetings twice             Report - 2/14/13              Missed Deadline – According to FAA, the report was
                  Committee                    annually. FAA shall complete a report that includes        & Annually                    cleared by partner agencies but is in administrative
                                               progress made in the NextGen Work Plan, a description      Afterward                     review. Agency expects the report to be published in
                                               of success/failure, an explanation of future changes to                                  next few months.
                                               the Plan and also identify funding.

      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed


CC-2012-003
                                                                                                                                                                                                6


                 EXHIBIT A. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                          (AS OF AUGUST 23, 2013)

Section             Initiative                    Description                                                Deadline          Progress   Status

211(b)              ADS-B (Rulemaking)            Initiate rulemaking to issue guidelines and regulations    2/14/13                      Missed Deadline – According to FAA, it is working
                                                  related to ADS-B In technology (display of information                                  through an Aviation Rulemaking Committee
                                                  in the cockpit).                                                                        recommendation related to this issue, and there is no
                                                                                                                                          specific target date for initiating rulemaking activities.
                                                                                                                                          We note that the technical requirements for ADS-B In
                                                                                                                                          are not mature and continue to evolve. As a result, it is
                                                                                                                                          uncertain when the advanced capabilities of ADS-B can
                                                                                                                                          be implemented and at what cost.

211(c)              ADS-B (Usage)                 FAA, in coordination with employee and industry            8/14/13                      Missed Deadline – According to FAA, the first draft of
                                                  groups, shall develop a plan to use ADS-B for active air                                the plan is complete and under internal review.
                                                  control and surveillance.

212                 Expert Review Enterprise      FAA shall enter into an agreement with the National        2/14/13                      Missed Deadline – FAA signed an agreement with the
                    Architecture for NextGen      Research Council (NRC) to review NextGen Enterprise                                     NRC 7 months after the Act became law, and the NRC’s
                                                  Architecture and submit a report to the House and Senate                                schedule calls for the report to be completed in March
                                                  authorizing Committees within 1 year of enactment.                                      2014.

213(a)(1)           Acceleration of NextGen       Publish a report that outlines implementation              Report: 8/14/12              Report: Missed Deadline – According to FAA, a single
                    Technologies (OEP             requirements needed to implement RNAV and RNP                                           report for OEP and non-OEP airports is under FAA
                    Airports)                     procedures at Operational Evolution Partnership (OEP)      RNAV/RNP                     executive review.
                                                  airports. Certify, publish, and implement RNAV/RNP         Procedure
                                                  procedures at OEP airports by June 30, 2015.               Implementation:              Implementation: Not Implemented – FAA is shifting
                                                                                                             30% by 8/14/13;              away from publishing large numbers of routes to
                                                                                                             60% by 2/14/15;              publishing fewer new routes that provide operational
                                                                                                             100% by 6/30/15              benefits. The realization of widespread benefits from the
                                                                                                                                          new procedures depends on FAA’s ability to revamp the
                                                                                                                                          controller handbook and deploy new automated tools for
                                                                                                                                          controllers.


         - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
         - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
         - Provision Not Implemented and Statutory Deadline Missed




CC-2012-030
                                                                                                                                                                                              7


               EXHIBIT A. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                        (AS OF AUGUST 23, 2013)

Section           Initiative                    Description                                                Deadline          Progress   Status

213(d)            Acceleration of NextGen       Submit a plan to the House and Senate authorizing          2/14/13                      Missed Deadline – According to FAA, a draft plan is in
                  Technologies (Data            committees for a nationwide data communications                                         FAA internal coordination.
                  Communications System)        system that includes budget, schedule, and performance
                                                metrics.

213(e)            Acceleration of NextGen       Outline in the NextGen Implementation Plan (1) if          None                         Met – The NGIP, published in June 2013, includes the
                  Technologies (Improved        technology such as ADS-B and RNP will improve                                           required language. While FAA states that it is evaluating
                  Performance Standards)        efficiency, and (2) safely reduce aircraft separation                                   reducing separation standards at congested airports, it is
                                                standards (include a timetable describing reduced                                       uncertain when FAA will widely implement the new
                                                standards in the NGIP).                                                                 standards.

213(f)            Acceleration of NextGen       Establish a program that authorizes the use of qualified   None                         Met – FAA awarded a contract in May 2012 for third-
                  Technologies (Third-Party     third parties in the development, testing, and                                          party development or RNP procedures to five mid-sized
                  Usage)                        maintenance of flight procedures.                                                       airports.

214               Performance Metrics           Establish and track detailed performance metrics at the    8/14/12                      Implemented Late – FAA delivered the metrics report to
                                                35 OEP airports. Submit a report to the House and                                       the House and Senate authorizing committees on August
                                                Senate describing the metrics.                                                          9, 2013. It has also published the metrics on its Web site.
                                                                                                                                        However, the Agency has yet to complete development
                                                                                                                                        of metrics measuring airline fuel burn and the number of
                                                                                                                                        operations using advanced navigation procedures.

215               Certification Standards       Develop a plan to accelerate and streamline the process    8/14/12                      Missed Deadline – According to FAA, the draft plan is
                  and Resources                 for certifying NextGen technologies.                                                    being revised based on internal coordination.


213(b)(1)         Acceleration of NextGen       Publish a report that outlines implementation              Report: 8/14/12              Report: Missed Deadline – According to FAA, a single
                  Technologies (Non-OEP         requirements needed to implement RNP procedures at 35                                   report for OEP and Non-OEP airports is under FAA
                  Airports)                     non-OEP airports. Certify, publish, and implement RNP      RNAV/RNP                     executive review.
                                                procedures at non-OEP airports over 4 years, fully         Procedure
                                                implementing them by June 30, 2016.                        Implementation:              Implementation: Not Implemented – FAA is shifting
                                                                                                           25% by 8/14/13;              away from publishing large numbers of routes to
                                                                                                           50% by 2/14/15;              publishing fewer new routes that provide operational
                                                                                                           100% by 6/30/16              benefits. The realization of widespread benefits from the
                                                                                                                                        new procedures depends on FAA’s ability to revamp the
                                                                                                                                        controller handbook and deploy new automated tools for
                                                                                                                                        controllers.

      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed



CC-2012-030
                                                                                                                                                                                              8


              EXHIBIT A. STATUS OF FAA’S IMPLEMENTATION OF THE TITLE II REQUIREMENTS
                                       (AS OF AUGUST 23, 2013)

Section           Initiative                   Description                                                  Deadline         Progress   Status

216               Surface System               Evaluate and accelerate the ASDE-X program, the              Implementing                Ongoing (ASDE-X) – FAA continues to explore
                  Acceleration                 surveillance system that allows air traffic controllers to   ASDE-X (none);              enhancements to the ASDE-X program as part of its
                                               track aircraft and vehicle surface movement. Develop a                                   NextGen initiatives.
                                               plan to expedite the certification and installation of       GBAS Plan:
                                               Ground-Based Augmentation System (GBAS)                      12/31/12                    Not Implemented (GBAS) – According to FAA, due to
                                               technology at the 35 OEP airports.                                                       issues in Newark, NJ, in 2012, the GBAS system went
                                                                                                                                        back in development for further research. The issues
                                                                                                                                        were resolved, and GBAS has been certified as a non-
                                                                                                                                        Federal acquisition system for airports.

217               Inclusion of Stakeholders    Include qualified employees from each collective             2/14/13                     Missed Deadline – According to FAA, the process for
                  in Air Traffic Control       bargaining unit and report to the House and Senate                                       including employees is in place, but the draft report is
                  Modernization Projects       authorizing committees on this section.                                                  under review.

218               Airspace Redesign            FAA and the Port Authority of NY/NJ/PHL monitor              TBD                         In Progress – The expected NY/NJ/PHL Airspace
                                               noise impacts of area Airspace Redesign. No later than 1                                 Redesign completion date is December 2016, with the
                                               year after completing Redesign, submit a report on noise                                 report due in December 2017.
                                               impacts.

220               NextGen Research and         FAA may enter into an agreement to assist in the             None                        Met – Existing Centers of Excellence are conducting
                  Development Center of        establishment of a Center of Excellence to research                                      research and development.
                  Excellence                   NextGen technology.

221               Public-Private               The DOT Secretary may establish an avionics equipage         None                        In Progress – In 2012, FAA obtained information from
                  Partnerships                 incentive program for general aviation and commercial                                    stakeholders regarding financial incentives for operators
                                               aircraft to install equipment to utilize NextGen                                         to equip with NextGen avionics. FAA continues to seek
                                               capabilities.                                                                            stakeholder input, but the Agency states that it lacks
                                                                                                                                        complete statutory authority to grant a loan guarantee
                                                                                                                                        and that federal credit laws require agencies to obtain
                                                                                                                                        specific authority to guarantee loans in an appropriation
                                                                                                                                        act.

222               Operational Incentives       FAA shall issue a report that identifies incentive options   8/14/12                     Missed Deadline – According to FAA, the Office of the
                                               to encourage operators to equip aircraft with NextGen                                    Secretary has reviewed the report and final publication
                                               technology.                                                                              by FAA is pending.

225               Greener Skies Project        Report on NextGen capabilities produced by Greener           Initial report              Implemented Late – Initial report was completed in
                                               Skies Project.                                               8/14/12 &                   March 2013—7 months after the due date.
                                                                                                            Annually


      - Provision Implemented, Deadline Met, or FAA Is Taking Steps To Meet Provision’s Deadline
      - Provision Implemented but Missed Statutory Deadline, or Additional Steps Needed To Implement Provision
      - Provision Not Implemented and Statutory Deadline Missed
CC-2012-030
                                                                                                   9

EXHIBIT B. OIG WORK RELATED TO FAA’S NEXTGEN PROGRAMS
Ongoing OIG Work

Audit Initiated     Audit Focus
January 23, 2013    FAA’s Information Security Controls of the Automatic Dependent Surveillance-
                    Broadcast System
October 18, 2012    FAA’s Surface Surveillance Programs for Runway Safety
July 19, 2012       Underlying Causes for FAA’s Limited NextGen progress
May 14, 2012        FAA’s Automatic Dependent Surveillance-Broadcast Program
May 9, 2012         FAA Efforts To Streamline Processes for Implementing New Performance-
                    Based Flight Procedures



Previously Issued Reports and Testimonies

Date                Report No.      Title
September 13, 2012 AV-2012-179      Weakness in Program and Contract Management Contribute
                                    to ERAM Delays and Put Other NextGen Initiatives at Risk
September 12, 2012 CC-2012-027      Update on FAA’s Progress and Challenges in Advancing the
                                    Next Generation Air Transportation System
August 1, 2012      AV-2012-167     Challenges With Implementing Near-Term NextGen
                                    Capabilities at Congested Airports Could Delay Benefits
April 23, 2012      AV-2012-094     Status of Transformational Programs and Risks to Achieving
                                    NextGen Goals
October 5, 2011     CC-2011-036     Federal Aviation Administration’s Progress and Challenges in
                                    Developing and Transitioning to the Next Generation Air
                                    Transportation System
August 4, 2011      AV-2011-149     FAA Oversight Is Key for Contractor-Owned Air Traffic Control
                                    Systems That Are Not Certified
June 15, 2011       AV-2011-131     FAA’s Approach to SWIM Has Led to Cost and Schedule
                                    Uncertainty and No Clear Path for Achieving NextGen Goals
February 16, 2011   CC-2011-016     Actions Needed To Meet FAA’s Long-Term Goals for NextGen



OIG reports and testimonies are available on our Web site at http://www.oig.dot.gov/.




CC-2012-003
